                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number:. A-0'7060032             -. .                                                  Page 1 of 1    -




     We received an allegation from an institution' that it was looking into a matter of research
     misconduct. The allegation was that the subject, the PI on an NSF proposal,2 took ideas
     (intellectual theft) from a competing NSF proposal.3 We referred the inquiry to the institution.

     As part of the inquiry process, the institution learned of another allegation of intellectual theft
     against the s ~ b j e c t .The
                                 ~ institution's review of both allegations determined that there was no
     substance to either one. It provided our office with a report with supporting documentation.
                                     . .




     As a result of our review of the institution's report, we concur with its conclusions. This case is
     closed and no further action will be taken.
